Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  USE OF THE DEPARTMENTAL 

     ALERT LIST BY CDC 





                    Daniel R. Levinson 

                     Inspector General 


                     September 2005

                     OEI-02-03-00010

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                 S U M M A R Y                   



                  OBJECTIVE
                  To determine the extent to which the Centers for Disease Control and
                  Prevention (CDC) adheres to policies governing the departmental Alert
                  List.


                  BACKGROUND
                  The Alert List is posted on the Department of Health and Human
                  Services’ (HHS) Intranet site for all agencies that award grants. If an
                  awarding agency has concerns about a grantee due to inexperience in
                  handling Federal funds, financial instability, inadequate management
                  systems, a history of poor programmatic performance, or other reasons,
                  the agency may place the grantee on the Alert List. The purpose of the
                  Alert List is to safeguard HHS funds by alerting other agencies to these
                  potential risks.

                  CDC grants officers are expected to follow policies governing the Alert
                  List. These policies are found in the “CDC Assistance Management
                  Manual” and “Guidance Memorandum No. 102-PGO” entitled “Special
                  Award Conditions and Alert List,” which CDC issued in April 2000.

                  Accordingly, CDC grants officers are expected to place on the Alert List
                  grantees that are at risk of financial failure or that have special award
                  conditions attached to the grant. Special award conditions address a
                  specific grantee vulnerability and may include, for example, requiring
                  more frequent grantee reporting. Grants officers are also responsible
                  for checking the Alert List prior to making an award and for consulting
                  with other agencies that initially placed the grantee on the Alert List.
                  Grants officers are also expected to monitor grantees on the Alert List
                  and take required actions when it attaches a special award condition.
                  Additionally, they are responsible for removing grantees from the Alert
                  List or justifying retaining a grantee whose name appears on the Alert
                  List more than 2 years.

                  In fiscal year 2002, CDC awarded a total of $6.9 million to grantees that
                  it had placed on the Alert List and another $10 million to grantees that
                  were placed on the Alert List by other agencies.

                  To determine the extent to which CDC adheres to policies governing the
                  Alert List, we reviewed the files of CDC grantees on the
                  January 13, 2003, Alert List. We requested the files of 37 CDC grantees
                  placed on the Alert List by CDC, the National External Audit Review
                  Center, or another agency. CDC provided 25 files for our review.

OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       i
E X E C U T I V E                        S U          M M A R Y

                  In the grantee file, we looked for evidence that grants officers followed
                  the policies governing the Alert List. We also conducted structured
                  interviews with key staff in CDC.


                  FINDINGS
                  CDC does not consistently follow Alert List policies. We found that
                  CDC does not consistently follow Alert List policies including placing,
                  checking, consulting, monitoring, and justifying retaining grantees on
                  the Alert List.
                  CDC does not consistently place grantees on the Alert List. Grants officers
                  are expected to place a grantee on the Alert List when they designate a
                  grantee as high risk or when they attach a special award condition to a
                  grant, even if the grantee has already been placed on the Alert List by
                  another agency. Grants officers attached a special award condition to
                  the grants of 9 of 25 grantees. However, they did not designate any of
                  these nine grantees as high risk and placed only five of them on the
                  Alert List.
                  CDC does not consistently provide evidence that the Alert List is checked.
                  Grants officers are expected to check the Alert List prior to an award
                  and to document when a grantee is found on the Alert List. Only 5 of
                  the 25 files reviewed contained any evidence that the grants officer had
                  checked the Alert List.
                  CDC does not regularly consult with other agencies to obtain information about
                  the grantee. Grants officers are responsible for consulting with the agency
                  that placed the grantee on the Alert List to obtain information about the
                  grantee. We found two instances of consultation documented in the files of
                  the six grantees that other agencies placed on the Alert List. Similarly,
                  there was evidence of consultation in only 1 of the files of the 11 grantees
                  that the National External Audit Review Center placed on the Alert List.
                  CDC does not consistently document certain monitoring activities for Alert List
                  grantees. Grants officers are expected to complete certain monitoring
                  activities when they attach a special award condition to a grant. Grants
                  officers attached special award conditions to 9 of the 25 grantees. We
                  found that none of the files for the nine grantees included transmittal
                  letters to the grantees indicating the corrective actions required, the
                  time period for correction, and a description of the consequences of not
                  completing actions required. Additionally, 4 of the 9 files of grantees
                  that had payment-related special conditions did not include notification
                  to the Payment Management System.


OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC          ii
 E X E C U T I V E                          S U           M M A R Y

                  CDC does not provide justification for retaining grantees whose name appears on
                  the Alert List more than 2 years. Grants officers are expected to provide
                  justification to the Office of Grants when retaining a grantee on the Alert
                  List for more than 2 years. At the time of the file review in March 2003,
                  6 of the 11 grantees that CDC placed on the Alert List had been there
                  longer than 2 years. None of these files had justification to support these
                  grantees remaining on the Alert List.
                  Competing priorities, misunderstandings, and concerns about
                  several aspects of the Alert List may explain why grants officers are
                  not following Alert List policies. CDC grants officials and grants
                  officers explained that the Alert List had not been a priority in the past.
                  They noted that they have instead focused on issuing grants, managing
                  heavy workloads, and training new staff. Further, we found that grants
                  officials and grants officers do not have a clear understanding of the
                  purpose of the Alert List and the policies governing its use. They also
                  do not think all aspects of the Alert List are useful. Specifically, they
                  reported that the Alert List is not updated regularly and does not
                  always have complete information.


                  RECOMMENDATIONS
                  We determined that CDC staff do not consistently follow policies
                  governing the use of the Alert List. This lack of adherence to existing
                  policies makes it impossible to ensure that a grantee’s risk of financial
                  failure or systemic deficiencies is communicated to all agencies that
                  award grants and that HHS funds are safeguarded.

                  In 2002, CDC centralized its grants and procurement functions and
                  restructured its grants management and contracts management
                  branches. Also, in May 2004, CDC announced a new organizational
                  design that coordinates its existing operational units, and grants
                  officials are currently in the process of writing procedures. As part of
                  these efforts, we recommend that CDC do the following:
                  Ensure that grants officers follow Alert List policies
                  CDC needs to ensure that grants officers follow policies for placing
                  grantees on the Alert List, checking the Alert List, consulting with
                  agencies that place grantees on the Alert List, monitoring grantees with
                  special award conditions, and removing grantees from the Alert List
                  when appropriate. CDC should additionally ensure that grants officers
                  justify retaining a grantee whose name appears on the Alert List more
                  than 2 years.



OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC        iii
E X E C U T I V E                        S U          M M A R Y

                  Develop methods to ensure accountability to Alert List policies
                  CDC should develop methods to ensure that grants officers are held
                  accountable to Alert List policies.

                  o 	 Currently, grants officers have a checklist that includes checking
                      the Alert List to determine whether a grantee is on the Alert List.
                      CDC may consider revising this checklist to include the additional
                      Alert List policies and requiring grants officers to complete it for
                      each grantee.

                  o 	 CDC may consider implementing an internal file review to ensure
                      that grants officers are following Alert List policies and using the
                      Alert List appropriately.

                  o 	 CDC may consider implementing a system to notify grants officers
                      when the 2-year time period expires.

                  o 	 CDC may consider providing additional training to grants officers
                      and their staffs about the importance of using the Alert List and
                      the need to follow the policies.
                  Improve file maintenance to meet third party review policies
                  In the course of this inspection, we found that the files we reviewed do
                  not always contain documentation to meet the third party review
                  policies of an auditable paper trail. We recommend that CDC ensure
                  that grant files are comprehensive so that they meet HHS policies. The
                  files need to specifically include documentation of all Alert List
                  activities and actions expected when special award conditions are
                  attached to a grant.


                  AGENCY COMMENTS
                  We received comments on our draft report from CDC. The full text of
                  these comments can be found in Appendix B. CDC takes no exception to
                  the findings in the report and is taking steps to address our
                  recommendations.




OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC      iv
Δ      T A B L E                     O F                  C O N T E N T S                             




                      E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




                      INTRODUCTION ................................................ 1




                      FINDINGS ....................................................... 9

                                 CDC does not consistently follow Alert List policies . . . . . . . . . . . . 9


                                 Several factors may account for CDC not consistently following 

                                 Alert List policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




                      R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




                      A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                                 A: Code of Federal Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                                 B: Agency Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




                      A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 





    OEI-02-03-00010      USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC
Δ   I N T R O D U C T I O N                                                     



                  OBJECTIVE
                  To determine the extent to which the Centers for Disease Control and
                  Prevention (CDC) adheres to policies governing the departmental Alert
                  List.


                  BACKGROUND
                  The Alert List is posted on the Department of Health and Human
                  Services’ (HHS) Intranet site for all agencies that award grants. If an
                  awarding agency has concerns about a grantee due to inexperience in
                  handling Federal funds, financial instability, inadequate management
                  systems, a history of poor programmatic performance, or other reasons,
                  the agency may place the grantee on the Alert List. The purpose of the
                  Alert List is to safeguard HHS funds by alerting other agencies to these
                  potential risks.
                  CDC Grants Management Process
                  CDC is responsible for administering the national program of
                  prevention and control of communicable and vector-borne diseases and
                  noninfectious conditions, as well as for improving laboratory conditions
                  and assuring safe and healthful working conditions for all working
                  people.

                  Within CDC, grants are administered by the Procurement and Grants
                  Office. In August 2002, CDC centralized its contract and procurement
                  functions within this office, and restructured its grants management
                  and contracts management branches. At the time of the inspection,
                  there were four Chief Grants Management Officers who supervised a
                  staff of Grants Management Officers. Grants Management Officers are
                  primarily responsible for the business and other nonprogrammatic
                  areas of grant award and administration. A Grants Management
                  Officer may serve in that capacity for multiple awards.

                  CDC grants are awarded and renewed annually in an ongoing process
                  throughout the year. In fiscal year 2002, CDC awarded $6.9 million to
                  22 grantees that it had placed on the Alert List and another $10 million
                  to 15 grantees that other agencies placed on the Alert List. Successful
                  grant proposals receive a Notice of Grant Award, which acts as the
                  official agreement between the grantee and CDC. The Notice of Grant
                  Award includes specific requirements for each grantee such as spending
                  caps, timelines, documentation requirements, and submission deadlines.



OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC     1
I N T R O D         U C T             I O N


                    Grants Management Officers may also attach special award conditions
                    to a grant to address a specific grantee vulnerability. Grants
                    Management Officers are responsible for monitoring the progress of the
                    grant project and the grantee’s adherence to these requirements and to
                    any special award conditions. The following primer defines a number of
                    key terms about the grants management process as it relates to the
                    Alert List.

       Primer on Grants Management
          Awarding Agency. The awarding agency is the agency that awards the grant. To do
          this, the awarding agency reviews the merits of each proposal and funds the grantee
          to carry out program objectives.

          Placing Agency. The placing agency is the agency that initiates placement of the
          grantee on the Alert List. The National External Audit Review Center can also
          initiate a placement of a grantee on the Alert List based on adverse audit findings.

          High Risk/Special Award Conditions. Special award conditions are attached to a
          grant award to address a specific grantee vulnerability. A high risk designation by
          the awarding agency is a prerequisite for the use of special award conditions.
          Examples of special award conditions may include requiring more frequent grantee
          reporting or limiting the monthly amount a grantee can draw from its total grant
          award.

          National External Audit Review Center. The National External Audit Review Center,
          within the Office of Inspector General, is the HHS focal point for receipt of grantee
          audits. As part of its review of these audits, National External Audit Review Center
          may issue an Alert. This Alert, which is sent to agency Audit Liaison contacts and
          the Office of Grants, indicates the nature of the problem and includes a statement
          that the entity should be considered for placement on the Alert List.


                    Alert List and High Risk/Special Award Conditions
                    The Alert List is maintained by HHS’s Office of Grants. The Alert List
                    includes the name and address of the grantee, the date the grantee was
                    placed on the Alert List, the agency(s) that initiated placement of the
                    grantee on the Alert List (the “placing agency”), a contact person at the
                    placing agency, and often a brief description of the reason the grantee
                    was placed on the Alert List.1 At the time of our inspection, CDC’s

                    1 The Office of Grants is responsible for placing the grantee on the Alert List upon
                      recommendation from the awarding agency. For the purposes of this report, we refer to
                      the placing agency as the agency that recommends the grantee placement to the Office of
                      Grants



OEI-02-03-00010     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                           2
I N T R O D        U C T           I O N


                    policies governing the use of the Alert List were found in Part II.C.6 of
                    the “CDC Administration Management Manual” (CAMM), Part 2,
                    Section 01 of Grants Policy Directive (GPD) 2.01, and Guidance
                    Memorandum No. 102-PGO “Special Award Conditions and Alert List.”2
                    According to the CAMM, CDC has an affirmative responsibility both to
                    place high risk grantees on the Alert List and to remove them in a
                    timely manner. CDC may designate a grantee as high risk if it has
                    concerns about the recipient’s ability to satisfy performance
                    expectations or accountability requirements because the organization
                    meets one or more of the following conditions:

                    o 	 Has a history of poor programmatic performance or current poor
                        performance.

                    o 	 Has inadequate management systems.

                    o 	 Has sustained large cost disallowances on Federal awards.

                    o 	 Has not materially complied with the terms and conditions of
                        previous CDC awards.

                    o 	 Is financially unstable (insolvent or may become insolvent).

                    o 	 Is financially dependent on Federal support (e.g., 80 percent or
                        more of the organization’s revenues are expected to be derived
                        from a Federal grant(s)).

                    o 	 Is inexperienced in handling Federal funds, for example, a newly
                        formed organization or one that has not previously received
                        Federal cost-reimbursement awards (whether contracts or
                        grants).

                    o 	 Is determined to have other special circumstances.

                    An awarding agency may place special award conditions on a grantee to
                    protect its interests and to promote positive change in a grantee’s
                    performance or compliance.3 The CAMM also states that use of special
                    award conditions and placement on the departmental Alert List are part
                    of the high risk designation process required by GPD 2.01 and that a


                    2 As of May 2004, CDC no longer uses the CAMM. It now uses HHS’s Awarding Agency
                     Grants Administration Manual (AAGAM). Alert List policies described in the AAGAM
                     are similar to those in the CAMM, with the exception that policies on the use of restriction
                     conditions are not included in the AAGAM.
                    3 HHS’s regulatory basis for designating a grantee as high risk is found in 45 CFR 74.14
                     and 45 CFR 92.12. See Appendix A.



 OEI-02-03-00010    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                          3
I N T R O D        U C T           I O N


                    high risk designation has no meaning apart from CDC’s ability to
                    include special award conditions in awards. According to the CAMM, a
                    “restriction” is a form of special award condition that need not be
                    accompanied by a high risk designation. 4 The CAMM further describes
                    that, with the exception of a “restriction,” CDC may use special award
                    conditions only in conjunction with designating a grantee as high risk.
                    Special award conditions as listed in the CAMM may include one or
                    more of the following:
                   o 	 Use of a reimbursement payment method rather than advance
                       payment.

                   o 	 Use of the deductive method of accounting for program income
                       (where the additive alternative ordinarily would apply or the
                       matching alternative might be appropriate).

                   o 	 More frequent financial or progress reporting than the program
                       ordinarily requires or regulation permits.

                   o 	 The need for CDC prior approval of a cost or activity that
                       ordinarily does not require such approval.
                    Awarding Agency Responsibilities
                    Awarding agencies have the responsibility to do the following regarding
                    the Alert List: (1) place grantees on the Alert List; (2) check the Alert
                    List; (3) consult with the agency that placed the grantee on the Alert
                    List; (4) monitor grantees when special award conditions are attached to
                    the grant; and (5) remove grantees in a timely manner. Specific Alert
                    List responsibilities are as follows:

                    o 	 Place. Awarding agencies are responsible for placing on the Alert
                        List grantees that they have designated high risk/special award
                        conditions. To place a grantee on the Alert List, the awarding
                        agency notifies the Office of Grants. The National External Audit
                        Review Center may also recommend that a grantee be placed on
                        the Alert List based on adverse findings in a grantee’s audit.
                        There may be several agencies that place the same grantee on the
                        Alert List.


                    4 A restriction needs to meet all three factors: (1) deals with a limited situation requiring
                     submission of a document(s) to complete the award process for an otherwise legal award;
                     (2) can be satisfied within 30 days of award; and (3) is approved by the Director,
                     Procurement and Grants Office. This inspection focuses only on those special award
                     conditions warranting placement on the Alert List; it does not include a restriction as a
                     type of special award condition governed by Alert List policies.



 OEI-02-03-00010    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                               4
I N T R O D        U C T           I O N


                    o 	 Check. Awarding agencies are also responsible for checking the
                        Alert List prior to awarding a grant. Upon review of the Alert
                        List and consideration of the basis for the high risk/special award
                        condition designation or issuance of an Office of Inspector General
                        Alert, an awarding agency must determine whether it will
                        independently designate the grantee as high risk/special award
                        conditions.

                    o 	 Consult. If the awarding agency determines that a grantee has
                        been placed on the Alert List by another agency, he or she must
                        consider whether the awarding agency also should designate the
                        grantee as high risk and include special award conditions in the
                        award. This decision should be made following consultation with
                        the agency(s) that made the designation as it appears on the Alert
                        List to ensure that it is still current and the present situation
                        warrants the designation.

                    o 	 Monitor. If special award conditions are attached to the grant, the
                        awarding agency is responsible for taking several actions.
                        Specifically, the agency must notify the grantee by transmittal
                        letter of the special award condition (but not the placement of the
                        grantee on the Alert List). The transmittal letter explains the
                        effect of the high risk designation, indicates the corrective actions
                        required and the time period for correction, among other things.
                        If a special award condition relates to payment, the awarding
                        agency is responsible for notifying the Division of Payment
                        Management when the requirement is imposed and when it is
                        removed.5
                    o 	 Remove. If an awarding agency places a grantee on the Alert List,
                        it is also responsible for notifying the Office of Grants when it is
                        appropriate to remove the grantee from the Alert List. Generally,
                        grantees should not remain on the Alert List for more than
                        2 years. If the grantee is on the Alert List for more than 2 years,
                        the agency that placed the grantee is required to provide
                        justification to the Office of Grants.



                    5 The Payment Management System is the centralized grants payment and cash
                     management system operated by the Division of Payment Management within HHS’s
                     Program Support Center. The Payment Management System accomplishes all payment-
                     related activities for HRSA and other agencies from the time of award through closeout of
                     a grant.



 OEI-02-03-00010    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                        5
I N T R O D       U C T             I O N


                  Additionally, according to the CAMM, CDC is expected to create and
                  maintain files that allow for a third party (e.g., auditor or other
                  reviewer) to follow the paper trail beginning with program initiation
                  through closeout of individual awards, and decisions made and
                  actions taken in between. Grants officers are also expected to
                  maintain the official grant file and to ensure that contents of all files
                  are current and can be easily identified and accessed.


                  METHODOLOGY
                  To determine the extent to which CDC adheres to Alert List policies, we
                  reviewed CDC and HHS policies governing the Alert List. We then
                  reviewed files of grantees on the Alert List and conducted interviews
                  with key agency staff.
                  Grantee Selection
                  Based on the departmental Alert List published on the Intranet as of
                  January 13, 2003, we identified 22 grantees to whom CDC awarded
                  grants and also placed on the Alert List. This included 4 grantees that
                  received CDC grants in 2002 and 18 grantees that received CDC grants
                  as far back as 1997. Even if a grantee is not currently funded, as long
                  as it remains on the Alert List and CDC is noted as the placing agency,
                  an awarding agency is supposed to contact CDC to obtain information
                  on that grantee’s potential risk.

                  To find CDC grantees that another agency placed on the Alert List, we
                  compared the grantees on the January 13, 2003, Alert List with a list of
                  all CDC grantees in fiscal year 2002.6 In doing so, we identified an
                  additional 15 grantees that had been placed by another agency, for a
                  total of 37 CDC grantees on the Alert List.
                  File Review
                  We requested that the complete grant file for each of the 37 CDC
                  grantees on the Alert List be made available for onsite review. The
                  CDC provided files for a total of 25 grantees. We requested the other
                  12 files several times over a 2-month period but CDC never made them
                  available for review. CDC officials explained that 11 of these CDC
                  placements were no longer funded and that these files were stored and
                  maintained offsite by contractors. CDC did not provide a file for an



                  6 This list was obtained from HHS’s Tracking Accountability in Government Grants
                  (TAGGS) database. The TAGGS database tracks all grants awarded by HHS.



OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                  6
 I N T R O D        U C T               I O N


                  additional grantee that received funds in fiscal year 1999 through fiscal
                  year 2002.

                  We conducted an onsite file review of the 25 files that were provided
                  by CDC during March 2003. 7 We reviewed these files for evidence
                  that each Alert List policy was followed. Specifically, we looked for
                  evidence of: (1) placing a grantee on the Alert List when special
                  award conditions were attached to the grant or when otherwise
                  appropriate, (2) checking the Alert List prior to making a grant
                  award, (3) consulting with other agencies that placed the grantee on
                  the Alert List, (4) monitoring potential vulnerabilities and taking
                  action when a special award condition was attached to the grant, and
                  (5) justifying retaining a grantee whose name appears on the Alert
                  List for more than 2 years.

                  Most of the grantees had been on the Alert List for several years.
                  Because CDC is responsible for maintaining a grantee file for 5 years,
                  we limited our review to 5 years of documentation. We considered all
                  documentation as evidence, including file checklists, e-mails, telephone
                  logs, notes to the file, and other informal notation, as well as standard
                  documentation such as Notices of Grant Award, grantee applications,
                  technical reviews, and audits.

                  Table 1 (on the following page) shows the number of files of CDC
                  grantees that we requested and reviewed, by the agency that initiated
                  their placement. In total, we reviewed 25 files. In some cases, our
                  analysis is based on the 11 grantees that CDC placed on the Alert List
                  and the 14 grantees that were placed on the Alert List by another
                  agency and not CDC. In other cases, we make a distinction between the
                  11 grantees that National External Audit Review Center placed on the
                  Alert List and the 6 grantees that other agencies placed on the Alert
                  List.




                  7 Two of these files were provided after the onsite review.




OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       7
 I N T R O D        U C T               I O N 



                  Table 1: CDC Alert List Grantees on the Alert List, by Placing Agency

                                                                                                     Grant Files
                                                                                      Grant Files   Provided for
                    Placing Agency                                                    Requested          Review
                    CDC Only                                                                  19              8
                    CDC and National External Audit                                            2              2
                    Review Center
                    CDC and Another Agency                                                     1              1
                    National External Audit Review Center                                     10              9
                    Only
                    Other Agency Only                                                          5              5
                    Total                                                         37                        25
                  Source: January 13, 2003, departmental Alert List and Tracking Accountability in Government
                  Grants (TAGGS) Database.



                  Structured Interviews
                  We conducted interviews with two senior grants officials and another
                  staff member in CDC’s Procurement and Grants Office (hereinafter
                  “grants officers”). We also conducted interviews with the three Chief
                  Grants Officers responsible for checking the Alert List prior to award
                  and for supervising Grants Management Officers. At the request of
                  each Chief Grants Officer, an additional Grants Management Officer
                  participated in each interview. These Chief Grants Officers and their
                  staffs will hereinafter be referred to as grants officers.

                  Standards
                  We conducted this inspection in accordance with the “Quality Standards
                  for Inspections” issued by the President’s Council on Integrity and
                  Efficiency.




OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                            8
Δ    F I N D I N G S



    CDC does not consistently follow Alert List          We found that CDC does not
                                                         consistently follow Alert List
                                      policies
                                                         policies including placing,
                                                         checking, consulting, monitoring,
                  and justifying retaining grantees on the Alert List.
                  CDC does not consistently place grantees on the Alert List
                  According to the CAMM, CDC has an affirmative responsibility to place
                  high risk grantees on the Alert List. It also states that CDC’s use of
                  special award conditions and placement on the departmental Alert List
                  are part of the high risk designation process required by GPD 2.01. We
                  reviewed the files of 25 grantees that were placed on the Alert List by
                  either CDC or another awarding agency. Grants officers attached a
                  special award condition as listed in the CAMM to the grants of 9 of
                  25 grantees. However, they did not designate any of these
                  nine grantees as high risk and placed only five of them on the Alert List.

                  In addition, grants officers are expected to notify the Office of Grants to
                  place a grantee on the Alert List. CDC placed a total of 11 of the
                  25 grantees on the Alert List. However, there was no evidence of
                  notification in any of these 11 files.

                  In our discussions with all three grants officers, we found that each of
                  them had a different understanding about when to place a grantee on
                  the Alert List. All three reported that they do not automatically place a
                  grantee with special award conditions on the Alert List. One reported
                  placing a grantee on the Alert List only if it has a special award
                  condition that is payment related.
                  CDC does not consistently provide evidence that the Alert List is checked
                  The CAMM states that grants officers are expected to check the Alert
                  List prior to an award. Only 5 of the 25 files reviewed contained any
                  evidence that the grants officer checked the Alert List. Two of these
                  instances were noted on a budget certification document that is
                  periodically included in the grant file. Evidence in the other
                  three instances was documented in notes to the grant file.

                  In some of the grantee files we found a standardized checklist that
                  tracked certain grant monitoring activities. This checklist includes
                  checking the Alert List to determine whether the grantee had been
                  placed on it. However, this checklist was not always included in the
                  grantee file or was not always complete with respect to the Alert List.


OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       9
F   I N D I N G         S


                  At the same time, in our discussions with the grants officers, all
                  three reported they always check the Alert List prior to awarding a
                  grant. In addition to checking the Alert List, they noted that they
                  review some combination of the grantee application, financial
                  documents, organizational policies, and previous history as part of their
                  grant award decisions.
                  CDC does not regularly consult with other agencies to obtain information
                  about the grantee
                  The CAMM states that, when a grantee is found on the Alert List, the
                  grants officer should consult with the agency(s) that initiated the
                  grantee placement. Grants officers are expected to review that agency’s
                  existing restrictions on the grantee to ensure that they are current and
                  warranted, and then to consider this information when making the
                  award decision.

                  We found little evidence that CDC consults with other agencies that
                  place grantees on the Alert List, including the National External Audit
                  Review Center. Specifically, there were only two instances of
                  consultation documented in the files of the six grantees that other
                  agencies placed on the Alert List.8 Similarly, there was evidence of
                  consultation with the National External Audit Review Center in only
                  1 of the files of the 11 grantees that National External Audit Review
                  Center placed on the Alert List. Additionally, grants officers are
                  expected to check the single audit database for National External Audit
                  Review Center Alerts for all grantees.9 We found documentation of this
                  activity in only 4 of the 25 grant files.

                  In our discussions with grants officers, all three reported having little
                  experience consulting with other agencies that placed grantees on the
                  Alert List. One grants officer noted only one instance of making a call
                  to a placing agency to learn why the grantee was placed on the Alert
                  List. Similarly, only one grants officer could recall ever contacting
                  National External Audit Review Center. We also learned that the CDC
                  Procurement and Grants Office receives information from National
                  External Audit Review Center about audit findings for grantees that the



                  8 These six grantees include five grantees that another agency placed on the Alert List and

                  the one grantee placed by both another agency and CDC. 

                  9 The Federal Audit Clearinghouse single audit database contains summary information on 

                  grantee A-133 audits, including audit results. The National External Audit Review Center 

                  posts results of its own grantee audit findings on the single audit database. 




OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC                         10
F   I N D I N G         S


                  National External Audit Review Center placed on the Alert List, but
                  this information is not routinely shared with the grants officers.
                  CDC does not consistently document certain monitoring activities for Alert
                  List grantees
                  The awarding agency is expected to complete certain monitoring
                  activities when it attaches a special award condition to a grant.
                  According to the CAMM, these activities include notifying the grantee of
                  the special award conditions in a letter that indicates the corrective
                  actions required, the time period for correction, and a description of the
                  consequences of not completing the actions required. The awarding
                  agency is also responsible for notifying the Director of the Payment
                  Management System if a special award condition relating to payment
                  was attached to the grant.

                  Grants officers attached special award conditions to 9 of the
                  25 grantees. We found that none of the files for these nine grantees
                  included transmittal letters to the grantees indicating the corrective
                  actions required, the time period for correction, and a description of the
                  consequences of not completing actions required. (We did find
                  occasional references in which the grantees were made aware of specific
                  actions required to resolve issues). Additionally, four of the nine files of
                  grantees that had payment-related special conditions did not include
                  notification to the Payment Management System.
                  CDC does not provide justification for retaining grantees whose names
                  appear on the Alert List more than 2 years
                  The CAMM states that the Procurement and Grants Officer is to
                  provide justification to the Office of Grants when keeping a grantee on
                  the Alert List for more than 2 years. At the time of the file review in
                  March 2003, 6 of the 11 grantees that CDC placed on the Alert List had
                  been there longer than 2 years. None of these files had justification to
                  support these grantees remaining on the Alert List. In our discussions
                  with grants officers, each described different policies regarding keeping
                  grantees on the Alert List longer than 2 years. When asked what
                  procedure they follow, only one reported that justification would be
                  provided to the Procurement and Grants Officer.




OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       11
F   I N D I N G         S        



                   Competing priorities, misunderstandings, and
                 concerns about several aspects of the Alert List             Grants officers
                        may explain why grants officers are not               have competing
                                     following Alert List policies            priorities. In 2002,
                                                                              CDC centralized its
                       contract and procurement functions and restructured its grants and
                       contracts management branches. As a result, the Procurement and
                       Grants Office assumed new administrative responsibilities and acquired
                       43 additional full-time staff. At the time of the interview, each Chief
                       Grants Management Officer was responsible for approximately
                       13 Grants Management Officers, who monitored 60 to 100 grants each.

                       Further, in our discussions with grants officers, they indicated that
                       using the Alert List has not always been a priority. They explained that
                       they have instead focused on getting grants out, managing heavy
                       workloads, and training new staff. One grants officer reported that
                       consulting the Alert List was not always done “. . . because we had new
                       people who hadn’t had the training yet, but lots of grants to get out.”
                       CDC grants officers and officials do not always have a clear understanding
                       of the Alert List
                       We found that grants officers and CDC officials do not always have a
                       clear understanding of the purpose and the policies governing the Alert
                       List. Some respondents explained that they do not always place
                       grantees on the Alert List because they could not be sure that the
                       information would not be used against the grantee. Some were also
                       reluctant to place grantees on the Alert List because they did not want
                       to “rat on” the grantee or jeopardize their relationship with the grantee.
                       Grants officers also reported some misunderstanding of the grants
                       policies for using the Alert List, such as the responsibility to notify the
                       Office of Grants to remove a grantee from the Alert List.

                       We found that some grants officers and CDC officials are beginning to
                       understand the purpose of the Alert List. One official noted that grants
                       officers have started to realize that the Alert List is a way to inform
                       other awarding agencies, to open communication with the placing
                       agency, and to help raise awareness of National External Audit Review
                       Center concerns. Another grants officer added that grants officers are
                       now aware that the Alert List is just an alert and that finding a
                       potential grantee on the Alert List does not necessarily require grants
                       officers to take action against the grantee.




    OEI-02-03-00010    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC     12
F   I N D I N G        S


                      CDC grants officials and grants officers do not think all aspects of the Alert
                      List are useful
                      Grants officers and CDC officials provided several reasons they believe
                      the Alert List is not always useful or is difficult to use. Some
                      respondents reported that the Alert List is not updated regularly. Also,
                      grantees are not always immediately placed on the Alert List by the
                      Office of Grants; rather, they are included when the updated Alert List
                      is published. Some also explained that the Web site location changes
                      and that they sometimes had trouble finding the Alert List.

                      Our review of the Alert List also found that it did not always have
                      useful or complete information. The January 13, 2003, version of the
                      Alert List did not have reasons the grantees were placed on the Alert
                      List for 59 of 313 grantees. In addition, the reasons the grantees were
                      placed on the Alert List were not always helpful because of general
                      statements such as “going concern” or “noncompliance.” Further, no
                      placing agency was identified for some grantees, and the grantee name
                      on the Alert List was markedly different from the name on the grant
                      award for other grantees.




    OEI-02-03-00010   USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       13
  Δ         R E C O M M E N D A T I O N S                                               



                    RECOMMENDATIONS
                    We determined that CDC staff do not consistently follow policies
                    governing the use of the Alert List. This lack of adherence to existing
                    policies makes it impossible to ensure that a grantee’s risk of financial
                    failure or systemic deficiencies is communicated to all agencies that
                    award grants and that HHS funds are safeguarded.

                    In 2002, CDC centralized its grants and procurement functions and
                    restructured its grants management and contracts management
                    branches. Also, in May 2004, CDC announced a new organizational
                    design that coordinates its existing operational units, and grants
                    officials are currently in the process of writing procedures. As part of
                    these efforts, we recommend that CDC do the following:
                    Ensure that grants officers follow Alert List policies
                    CDC needs to ensure that grants officers follow policies for placing
                    grantees on the Alert List, checking the Alert List, consulting with the
                    agencies that place grantees on the Alert List, monitoring grantees on
                    the Alert List, and removing grantees from the Alert List when
                    appropriate. CDC should additionally ensure that grants officers justify
                    retaining a grantee whose name appears on the Alert List more than
                    2 years.
                    Develop methods to ensure accountability to Alert List policies
                    CDC should develop methods to ensure that grants officers are held
                    accountable to Alert List policies.

                    o 	 Currently, grants officers have a checklist that includes checking
                        the Alert List to determine whether a grantee is on the Alert List.
                        CDC may consider revising this checklist to include the additional
                        Alert List policies and requiring grants officers to complete it for
                        each grantee.

                    o 	 CDC may consider implementing an internal file review to ensure
                        that grants officers are following Alert List policies and using the
                        Alert List appropriately.

                    o 	 CDC may consider implementing a system to notify grants officers
                        when the 2-year time period expires.

                    o 	 CDC may consider providing additional training to grants officers
                        and their staffs about the importance of using the Alert List and
                        the need to follow the policies.



OEI-02-03-00010     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       14
         R 	E C O   M M E N D A T                           I O N               S

                      Improve file maintenance to meet third party review policies
                      In the course of this inspection, we found that the files we reviewed do
                      not always contain documentation to meet the third party review
                      policies of an auditable paper trail. We recommend that CDC ensure
                      that grant files are comprehensive so that they meet HHS policies. The
                      files need to specifically include documentation of all Alert List
                      activities and actions expected when special award conditions are
                      attached to a grant.


                      AGENCY COMMENTS
                      We received comments on our draft report from CDC. The full text of
                      these comments can be found in Appendix B. CDC takes no exception
                      to the findings in the report and is taking steps to address our
                      recommendations. Specifically, CDC plans to:

                      o 	 Request that 22 of the 25 CDC grantees on the December 1, 2004,
                          Alert List be removed from the Alert List;

                      o 	 Stress to grants staff the need to follow policies;

                      o 	 Identify and document Alert List additions and deletions, and
                          prompt grants staff for action after 2 years;

                      o 	 Revise the Alert List portion of the preaward checklist used by
                          grants staff; and

                      o 	 Conduct an internal file review to identify all grants that contain
                          special award conditions and to determine if Alert List policies
                          were followed.




OEI-02-03-00010       USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC     15
Δ          A P P E N D I X                     A            



                    PART 74--UNIFORM ADMINISTRATIVE REQUIREMENTS FOR AWARDS AND
                    SUBAWARDS TO INSTITUTIONS OF HIGHER EDUCATION, HOSPITALS,
                    OTHER NONPROFIT ORGANIZATIONS, AND COMMERCIAL
                    ORGANIZATIONS; AND CERTAIN GRANTS AND AGREEMENTS WITH
                    STATES, LOCAL GOVERNMENTS AND INDIAN TRIBAL GOVERNMENTS

                    Special award conditions.
                    (a) 	The HHS awarding agency may impose additional requirements as
                         .needed, without regard to § 74.4, above, if an applicant or recipient:

                             (1) 	has a history of poor performance,

                             (2) 	is not financially stable,

                             (3) 	has a management system that does not meet the standards
                                  prescribed in this part,

                             (4) 	has not conformed to the terms and conditions of a previous
                                  award, or

                             (5) 	is not otherwise responsible.

                    (b) 	When it imposes any additional requirements, the HHS awarding
                         .agency must notify the recipient in writing as to the following:

                             (1) 	the nature of the additional requirements,

                             (2) 	the reason why the additional requirements are being

                                  /imposed, 


                             (3) 	the nature of the corrective actions needed,

                             (4) 	the time allowed for completing the corrective actions, and

                             (5) 	the method for requesting reconsideration of the additional
                                  /requirements imposed.

                    (c) 	The HHS awarding agency will promptly remove any additional
                         requirements once the conditions that prompted them have been
                         corrected.




OEI-02-03-00010     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC           16
    A   P   P E N D   I X        A

                      PART 92--UNIFORM ADMINISTRATIVE REQUIREMENTS FOR GRANTS AND
                      COOPERATIVE AGREEMENTS TO STATE AND LOCAL GOVERNMENTS

                      Sec. 92.12 Special grant or subgrant conditions for “high risk” grantees.

                      (a) 	A grantee or subgrantee may be considered as high risk if an
                           awarding agency determines that a grantee or subgrantee:
                               (1) 	has a history of unsatisfactory performance; or
                               (2) 	is not financially stable; or
                               (3) 	has a management system which does not meet the
                                   .management standards set forth in this part; or
                               (4) 	has not conformed to terms and conditions of previous awards;
                                   .or
                               (5) 	is otherwise not responsible; and if the awarding agency
                                   .determines that an award will be made, special conditions
                                   .and/or restrictions shall correspond to the high risk condition
                                   .and shall be included in the award.
                      (b) Special conditions or restrictions may include:
                               (1) 	payment on a reimbursement basis;
                               (2) 	withholding authority to proceed to the next phase until
                                   /receipt of evidence of acceptable performance within a given
                                   /funding period;
                               (3) 	requiring additional, more detailed financial reports;
                               (4) 	additional project monitoring;
                                (5) 	requiring the grantee or subgrantee to obtain technical or
                                    .management assistance; or
                               (6) 	establishing additional prior approvals.
                      (c) 	If an awarding agency decides to impose such conditions, the
                           awarding official will notify the grantee or subgrantee as early as
                           possible, in writing, of:
                               (1) 	the nature of the special conditions/restrictions,
                               (2) 	the reason(s) for imposing them,
                                (3) 	the corrective actions which must be taken before they will be
                                    .removed and the time allowed for completing the corrective
                                    .actions, and
                                (4) 	the method of requesting reconsideration of the conditions/
                                    .restrictions imposed.




OEI-02-03-00010       USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC           17
Δ          A P P E N D I X                      B            





OEI-02-03-00010     USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC   18
      A    P      P E N D    I X            B            





OEI-02-03-00010             USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC   19
Δ          A C K N O W L E D M E N T S                                                 




                   This report was prepared under the direction of Jodi Nudelman, Acting
                   Regional Inspector General for Evaluation and Inspections in the New
                   York regional office. Other principal Office of Evaluation and
                   Inspections staff who contributed include:

                   Vincent Greiber, Team Leader
                   Natasha Besch, Program Analyst

                   Nicole Gillette, Program Analyst

                   Alan Levine, Program Specialist

                   Linda Ragone, Deputy Regional Inspector General, Region III

                   Elise Stein, Director, Public Health and Human Services Branch
                   Barbara Tedesco, Mathematical Statistician




OEI-02-03-00010    USE   OF THE   D E PA R T M E N TA L A L E R T L I S T   BY   CDC       20
